                                 News From
                       The Office of Inspector General
                    Corporation For National And Community Service




                  Ex-VISTA Member Pleads Guilty to Theft



A former VISTA member has found out the hard way that a paperwork lapse is
no excuse for theft of Federal funds.

An Office of Inspector General investigation found that Jannette Maughan, a
former Utah VISTA member, knowingly pocketed more than $8,000 in
subsistence allowance payments after she resigned from the program. Maughan
left VISTA on November 16, 2002, but her departure was not immediately
reported, as required, to the Corporation by local program officials.

Maughan kept receiving allowance payments until August 23, 2003. Despite her
program’s administrative error, she was required to report the erroneous
payments to program officials and return any funds to which she was not entitled.

Maughan pled guilty to misdemeanor theft on July 27, 2006, in Utah District
Court and was sentenced to 12 months in prison (which was suspended), 25
months of probation, fined $250 (plus $25 in court costs) and required to make
full restitution to the Corporation.
